BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Reply Brief for Petitioner in
19-511, Facebook, Inc. v. Noah Duguid, individually
and on behalf of himself and all others similarly
situated, and United States of America, were sent via
Next Day Service to the U.S. Supreme Court, and Next
Day and e-mail service to the following parties listed
below, this 16th day of November, 2020:
Sergei Lemberg
Lemberg & Associates LLC
43 Danbury Road
Wilton, CT 06897
(203) 653-2250
slemberg@lemberglaw.com
Counsel for Respondent Noah Duguid
Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent United States

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

I www.beckergallagher.corn

J

8790 Governor's Hill Drive
Suite l 02

Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Paul D. Clement
Counsel of Record
Erin E. Murphy
Devin S. Anderson
Kasdin M. Mitchell
Lauren N. Beebe
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Andrew B. Clubok
Roman Martinez
Susan E. Engel
Samir Deger-Sen
Gregory B. in den Berken
Latham & Watkins LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 16, 2020.

DonnaJ. W6
Becker Gallagher L gal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

/0~ k/01 cJ-oc}c)

dolv /J,

Notary Public
[seal]

~

